No. 19-564

 

 

IN THE
Supreme Court of the United States

STATE OF MICHIGAN,
Petitioner,
Vv.
ERIC LAMONTEE BECK,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Michigan

CERTIFICATE OF SERVICE

The undersigned certifies that he has this 30th day of December 2019,
caused one copy of the foregoing Motion to Proceed in Forma Pauperis to be
served on the below-named counsel by first-class mail, postage prepaid, and
further certifies that all persons required to be served have been served:

Heidi Michelle Williams
SAGINAW COUNTY
PROSECUTOR'S OFFICE

111 South Michigan Avenue

Saginaw, MI 48602

(989) 482-6907

hwilliams@saginawcounty.com

Vi

rey L. Fisher
Counsel for Respondent
